GR-80-98-027
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
Office of Community Oriented Policing Services
Starr County Sheriff's Department
Rio Grande City, Texas
GR-80-98-027
July 14, 1998

 
EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an
audit of two grants awarded by the U.S. Department of Justice (DOJ), Office of Community
Oriented Policing Services (COPS), to the Starr County Sheriff's Department in Rio Grande
City, Texas. Starr County received a grant of $49,347 to hire one deputy under the Funding
Accelerated for Smaller Towns (FAST) program and $663,350 to hire ten deputies under the
Universal Hiring Program (UHP). The purpose of the additional officers is to enhance
community policing.
Starr County did not meet the terms and conditions of the grant;
therefore, we are questioning $131,625 of funds reimbursed under the FAST and UHP grants
at the time of our audit. In addition, $301,118 should be withheld as funds to better use
because Starr County did not hire all of the deputies awarded under the grants; they
overstated salaries and benefits in the grant applications; they did not enhance community
policing; and they did not develop a formal retention plan.
We found the following discrepancies with regard to meeting the grant
conditions:


- Starr County supplanted county-funded deputy positions with COPS
    grant funds.
- The county's community policing efforts were not enhanced with the
    award of grant funds.
- The Starr County Sheriff's Department filled only 7 of 11 positions
    awarded under the grants and did not have any intention to fill the 4 remaining positions.
- Total allowable costs in both the FAST and UHP grant applications
    were overstated.
- A formal retention plan was not developed for continuing the
    employment of the grant-funded deputies at the end of the grant period.
- Starr County did not allow for a decreasing Federal share in their
    requests for payments.
- The Department Initial Report, due when Starr County accepted the
    FAST grant, and two Officer Progress Reports for 1996 were not submitted to the COPS
    Office.
- The Department Annual Report for 1996 was submitted, but contained
    several errors in the COPS activities.
- The Department Annual Report and Officer Progress Reports for 1997
    were not submitted as of April 15, 1998.
- The Financial Status Reports included $3,325 in questioned costs due
    to unallowable expenditures submitted in their grant applications.
- Four of seven Financial Status Reports were submitted late to OJP.
#####